GR-90-98-006
U.S. DEPARTMENT OF JUSTICE
 
 Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE SISKIYOU COUNTY SHERIFF'S DEPARTMENT
CALIFORNIA
GR-90-98-006 
JANUARY 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Siskiyou County Sheriff's Department (SCSD), California.
The SCSD received a grant of $75,000 to hire or rehire one additional sworn police
officers under the Funding Accelerated for Smaller Towns (FAST) program, and $466,329 to
hire or rehire three officers under the Universal Hiring Program (UHP). The purpose of the
additional officers is to enhance community policing efforts.
Generally, the SCSD properly managed the COPS grants:


- Costs charged to the grants were in accordance with grant requirements. As of June
    30, 1996, the SCSD had requested reimbursement of about 75 percent of the allowable costs
    for the FAST grant, and 100 percent of the allowable costs for the UHP grant.
- Since the inception of the grants, the number of officers budgeted from county
    resources has not decreased below the 38 officers budgeted in 1994. In addition, the SCSD
    appeared to be making a good faith effort to fill officer vacancies timely. 
- Funds provided under the grants were used to enhance the SCSD community policing
    efforts. The number of officers performing community policing activities increased by the
    number of officers funded under the grants.


However, the SCSD violated some grant conditions:


- The SCSD failed to submit the Department Initial Report to COPS.
- The SCSD did not develop a good faith plan to retain the grant funded positions.
#####